___

IN THE
SUPREME'COURT OF THE UNITED SATES

EMMANUEL TORRES
Petitioners
V

BAY AREA CREDIT SERVICESET AL
Respondent

AFFIDAVIT OF SERVICE
VICTOR EULETICE do swear that on July 26 2021,1 served petitioners petition for
writ of certiorari on each party to the above proceeding by depositing the above
documents in the United States mail properly addressed to each of them with first
class postage pre-paid as follows.
Aaron R Easley
Sessions Israel & Shartle LLC
3 Cross Creek Drive
Flemington NJ 08822
Concepcion Montoya
Hinshaw & Culbertson
800 Third Avenue 13th Floor
New York NY 10022 o

VictoirEuletice
Sworn to before me this
£6^_day of Jialy 2021 /
/

otary Public
„

AMNCjIMMOCMIO

NO. 0100(212372
ii . Ol/llllliJ h Bronx County
MyCommliilon taplru

-10-

